March 21, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicaid Payments for Services Provided Under New Jersey’s Section
              1915(c) Community Care Waiver at Bancroft NeuroHealth From January 1, 2005,
              Through December 31, 2007 (A-02-09-01034)


Attached, for your information, is an advance copy of our final report on Medicaid payments for
services provided under New Jersey’s section 1915(c) Community Care Waiver at Bancroft
NeuroHealth. We will issue this report to the New Jersey Department of Human Services within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01034.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION II
                                                                J ACOB K. J AVITS F EDERAL B UILDING
                                                                     26 F EDERAL P LAZA , R OOM 3900
March 22, 2012                                                                N EW Y ORK, NY 10278

Report Number: A-02-09-01034

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments for Services Provided Under
New Jersey’s Section 1915(c) Community Care Waiver at Bancroft NeuroHealth From
January 1, 2005, Through December 31, 2007. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-09-01034 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF MEDICAID PAYMENTS
 FOR SERVICES PROVIDED UNDER
 NEW JERSEY’S SECTION 1915(C)
  COMMUNITY CARE WAIVER AT
 BANCROFT NEUROHEALTH FROM
   JANUARY 1, 2005, THROUGH
      DECEMBER 31, 2007



                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-02-09-01034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid.

The New Jersey Department of Human Services (State agency) administers New Jersey’s (the
State) Medicaid program and provides oversight for compliance with Federal requirements. The
State’s Community Care Waiver (CCW) program allows the State agency to claim Medicaid
reimbursement for HCBS provided to mentally retarded or developmentally disabled individuals
who would otherwise require institutionalization in an Intermediate Care Facility for the
Mentally Retarded (ICF/MR).

The State agency administers the CCW program through its Division of Developmental
Disabilities (division). Under the CCW program, each beneficiary is required to have a plan of
care (individual habilitation plan) and a level-of-care assessment completed every 12 months.
For an individual to be assessed as eligible for the CCW program, a qualified mental retardation
professional must certify that the beneficiary is assessed to need an ICF/MR level of care. The
division must maintain documentation of each habilitation plan and assessment for at least
3 years.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $1.4 billion for services provided under the CCW program. During this period, Bancroft
NeuroHealth (Bancroft), a CCW program service provider located in Haddonfield, New Jersey,
received Medicaid reimbursement for 7,057 beneficiary-months totaling $41.6 million
($20.8 million Federal share). A beneficiary-month includes all CCW program services for a
State beneficiary for 1 month.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for CCW program services provided by Bancroft complied with certain Federal and State
requirements.




                                                i
SUMMARY OF FINDINGS

The State agency claimed Federal Medicaid reimbursement for some CCW program services
provided by Bancroft that did not comply with certain Federal and State requirements. Of the
113 beneficiary-months in our random sample, the State agency properly claimed Medicaid
reimbursement for all CCW program services in 40 beneficiary-months. However, the State
agency claimed Medicaid reimbursement for services that were not allowable for the remaining
73 beneficiary-months. Specifically, services totaling $116,364 (Federal share) in 73
beneficiary-months did not comply with certain Federal and State requirements. Of these 73
beneficiary-months, 34 contained more than 1 deficiency.

The claims for unallowable services were made because: (1) Bancroft and the division did not
ensure that they only claimed for documented, allowable CCW program services, (2) the division
did not ensure that CCW program services were provided only to beneficiaries with completed
and approved individual habilitation plans, and (3) the division did not ensure and document that
all beneficiaries were assessed and certified to require an ICF/MR level of care.

Based on our sample results, we estimated that the State agency improperly claimed $2,654,293
in Federal Medicaid reimbursement for CCW program services provided by Bancroft that did not
comply with certain Federal and State requirements during calendar years 2005 through 2007.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $2,654,293 to the Federal Government;

   •   require Bancroft and the division to ensure that they only claim for documented,
       allowable CCW program services;

   •   require the division to ensure that CCW program services are provided only to
       beneficiaries for whom there is a completed and approved individual habilitation plan;
       and

   •   require the division to ensure and document that all CCW program beneficiaries
       approved for services have been assessed and certified to need an ICF/MR level of care.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining findings and recommendations. Under separate cover, the State agency provided
additional documentation to support services that we questioned in our draft report for lacking
adequate documentation. In addition, the State agency disagreed with our findings related to
incomplete individual habilitation plans and CCW program services provided to beneficiaries


                                                ii
who were not assessed and certified to require an ICF/MR level of care. Specifically, the State
agency indicated that a habilitation plan coordinator’s signature in the attendance section of the
beneficiary’s individual habilitation plan indicated that the plan was complete and demonstrated
that the beneficiary’s level of care determination had been recertified.

After reviewing the State agency’s comments and additional documentation, we revised our
findings regarding inadequate documentation and modified our statistical estimates accordingly.
We maintain that our remaining findings are valid. Regarding the State agency’s comments that
a signature in the attendance section of the beneficiary’s individual habilitation plan indicated
that the plan was complete and demonstrated that the beneficiary’s level of care determination
had been recertified, we note that this section of the plan is distinct from the “Community Care
Waiver Certification” (emphasis in original) section on the same page of the plan. The section
indicated in the State agency’s comments is listed as being intended for attendance purposes,
whereas the certification section includes a space for qualified mental retardation professionals to
certify that they have reviewed the plan and determined that the beneficiary “continues to have
functional limitations and requires active treatment and ICF/MR level services” for a specific
period. In every individual habilitation plan where we found an absence of qualified mental
retardation professional approval or certification, the “Community Care Waiver Certification”
was unsigned.

The State agency’s comments appear as Appendix D, except for a spreadsheet containing
personally identifiable information.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Medicaid Program ....................................................................................... 1
              Home and Community-Based Services Waivers ........................................ 1
              New Jersey’s Community Care Waiver Program ....................................... 1
              Bancroft NeuroHealth ................................................................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 2
               Objective ..................................................................................................... 2
               Scope ........................................................................................................... 3
               Methodology ............................................................................................... 3

FINDINGS AND RECOMMENDATIONS ................................................................... 4

          UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM
           SERVICES ........................................................................................................... 5
              Services Not Documented............................................................................ 5
              Individual Habilitation Plan Not Complete or Available ............................. 5
              Level-of-Care Assessment Not Documented............................................... 6
              Waiver Services Not Provided ..................................................................... 6

          CAUSES OF UNALLOWABLE CLAIMS ........................................................... 6

          RECOMMENDATIONS ........................................................................................ 7

          STATE AGENCY COMMENTS ........................................................................... 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ............................................. 8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
              BENEFICIARY-MONTH

          D: STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although a
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements. The New Jersey Department of Human Services (State
agency) administers New Jersey’s (the State) Medicaid program and provides oversight for
compliance with Federal requirements.

Home and Community-Based Services Waivers

Section 1915(c) of the Act authorizes Medicaid home and community-based services (HCBS)
waiver programs. A State’s HCBS waiver program must be approved by CMS and allows a
State to claim Federal reimbursement for services not usually covered by Medicaid. HCBS are
generally provided to Medicaid-eligible beneficiaries in the community rather than an
institutional setting.

Section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(iii)) provide that
HCBS may be provided only to recipients who have been determined would, in the absence of
such services, require the Medicaid covered level of care provided in a hospital, a nursing
facility, or an intermediate care facility for persons with mental retardation. Pursuant to section
1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)), HCBS must be
furnished under a written plan of care subject to approval by each State’s State agency. In
addition, Federal regulations (42 CFR § 441.302(c)) require a State agency to provide for an
initial evaluation of the recipient’s need for the level of care that would be provided in an
institution unless the individual receives HCBS. The regulations further require at least annual
reevaluations of each recipient receiving HCBS.

According to section 4442.6 of CMS’s State Medicaid Manual, an assessment of the individual
to determine the services needed to prevent institutionalization must be included in the plan of
care. In addition, the plan of care must specify the medical and other services to be provided,
their frequency, and the type of provider. No Federal financial participation is available under a
section 1915(c) waiver for HCBS furnished without a written plan of care.

New Jersey’s Community Care Waiver Program

The State’s HCBS waiver program includes the Community Care Waiver (CCW) program,
which is administered by the State agency through its Division of Developmental Disabilities
(division). The division is responsible for the implementation and operation of the CCW



                                                 1
program. 1 The CCW program allows the State agency to claim Medicaid reimbursement on a
fee-for-service basis for HCBS provided to mentally retarded or developmentally disabled
individuals who would otherwise require institutionalization in an Intermediate Care Facility for
the Mentally Retarded (ICF/MR). Most of the CCW program services are provided through
State contracts with private organizations or individuals. 2

According to the State’s waiver agreement with CMS, to be eligible for the State’s CCW
program, a beneficiary must be a Medicaid recipient, be diagnosed as mentally retarded or
developmentally disabled, and be assessed to need an ICF/MR level of care. In addition, each
beneficiary is required to have a plan of care (individual habilitation plan) and a level-of-care
assessment completed every 12 months. For the assessment, a qualified mental retardation
professional, who may be employed by either the service provider or the division, must certify
that the beneficiary was assessed to need an ICF/MR level of care. The division must maintain
documentation of each individual habilitation plan and assessment for at least 3 years. The State
agency must also ensure financial accountability for funds expended for HCBS, as well as
maintain appropriate financial records documenting the cost of services provided under the
waiver.

During calendar years 2005 through 2007, the State agency claimed Federal reimbursement
totaling $1.4 billion for services provided under the CCW program.

Bancroft NeuroHealth

Bancroft NeuroHealth (Bancroft), located in Haddonfield, New Jersey, provides individual
support, day programs, and supported employment services for people with developmental
disabilities and medical challenges. Bancroft was the second largest provider of services under
the State’s CCW program during calendar years 2005 through 2007. During this period,
Bancroft received Medicaid reimbursement for CCW program services totaling $41.6 million
($20.8 million Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Medicaid reimbursement
for CCW program services provided by Bancroft complied with certain Federal and State
requirements.



1
 According to its waiver agreement with CMS, the State agency’s Division of Medical Assistance and Health
Services has “final responsibility” for the oversight of the program.
2
 The CCW program includes case management, respite care, day habilitation (assistance with improvement in
self-help, socialization, and adaptive skills in a nonresidential setting), supported employment, environmental and
vehicle adaptation, personal emergency response systems, individual support (in a residential facility or a
beneficiary’s home), and integrated therapies services.



                                                          2
Scope

Our review covered the State agency’s claims for Medicaid reimbursement for HCBS provided
to State residents by Bancroft under the CCW program during calendar years 2005 through 2007.
During this period, the State agency claimed $41.6 million ($20.8 million Federal share) for
services provided by Bancroft in 7,057 beneficiary-months. 3 We will be issuing a separate
report (A-02-09-01033) on CCW service claims submitted by Elwyn New Jersey from January 1,
2005, through December 31, 2007.

The scope of our audit did not require us to perform a medical review or an evaluation of the
medical necessity for the services that Bancroft provided and claimed for reimbursement.

We did not assess the State agency’s overall internal control structure or all the internal controls
over the CCW program. Rather, we limited our review of internal controls to those applicable to
our objective. We reviewed Bancroft’s and the division’s internal controls for documenting
CCW program services billed and claimed for reimbursement. We did not assess the
appropriateness of HCBS payment rates.

We performed our fieldwork at Bancroft’s offices in Haddonfield, New Jersey, and at the
division’s office in Trenton, New Jersey.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State Medicaid HCBS waiver laws, regulations, and
        guidance;

    •   met with CMS financial and program management officials to gain an understanding of
        the HCBS waiver approval, administration, and assessment processes;

    •   met with State agency officials to discuss the State agency’s administration and
        monitoring of the CCW program;

    •   interviewed Bancroft and division officials regarding their CCW program policies and
        procedures;

    •   reconciled the CCW program services claimed for Federal reimbursement by the State
        agency on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
        Medical Assistance Program, to the population of all payments for CCW program
        services made to providers statewide obtained from the State’s Medicaid Management
        Information System for the quarter ended June 30, 2007;


3
 A beneficiary-month includes all CCW program services for a beneficiary for 1 month. A beneficiary-month
could include multiple services.


                                                      3
    •   obtained from the State’s Medicaid Management Information System a sampling frame
        of 7,057 beneficiary-months with CCW program services for which Bancroft claimed
        reimbursement totaling $41.6 million ($20.8 million Federal share) from January 1, 2005,
        through December 31, 2007;

    •   selected a stratified random sample of 113 beneficiary-months from the sampling frame
        of 7,057 beneficiary-months and for each beneficiary-month:

        o determined whether the beneficiary was assessed by a qualified mental retardation
          specialist to be eligible for the CCW program,

        o determined whether CCW program services were provided in accordance with an
          approved individual habilitation plan,

        o determined whether the staff members who provided the services met qualification
          and training requirements,

        o determined whether documentation supported the CCW program services billed, and

        o identified services that were not provided or documented in accordance with Federal
          and State requirements;

    •   estimated the unallowable Federal Medicaid reimbursement paid in the total population
        of 7,057 beneficiary-months; and

    •   provided the results of our review to Bancroft officials.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

The State agency claimed Federal Medicaid reimbursement for some CCW program services
provided by Bancroft that did not comply with certain Federal and State requirements. Of the
113 beneficiary-months in our random sample, the State agency properly claimed Medicaid
reimbursement for CCW program services in 40 beneficiary-months. For the remaining 73
beneficiary-months, the State agency improperly claimed Medicaid reimbursement totaling
$116,364 (Federal share) for services that did not comply with certain Federal and State
requirements. Of the 73 beneficiary-months, 34 contained more than 1 deficiency, for a total of



                                                 4
121 deficiencies. Appendix C contains a summary of deficiencies, if any, identified for each
sampled beneficiary-month.

The claims for unallowable services were made because: (1) Bancroft and the division did not
ensure that they only claimed for documented, allowable CCW program services; (2) the division
did not ensure that CCW program services were provided only to beneficiaries with completed
and approved individual habilitation plans; and (3) the division did not ensure and document that
all beneficiaries were assessed and certified to require an ICF/MR level of care.

Based on our sample results, we estimated that the State agency improperly claimed $2,654,293
in Federal Medicaid reimbursement for CCW program services provided by Bancroft that did not
comply with certain Federal and State requirements during calendar years 2005 through 2007.

UNALLOWABLE COMMUNITY CARE WAIVER PROGRAM SERVICES

Services Not Documented

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary to
disclose fully the extent of the services provided to individuals receiving assistance under the
State plan. Pursuant to Office of Management and Budget Circular A-87, Cost Principles for
State, Local, and Tribal Governments, Att. A, § C.1.j (2 CFR § 225, App. A § C.1.j), costs must
be adequately documented to be allowable under Federal awards. According to section 2500.2
of CMS’s State Medicaid Manual, States are to report only expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and that is immediately available
when the claim is filed. 4

For 52 beneficiary-months, the State agency claimed reimbursement for services that were not
adequately documented. For these services, Bancroft did not maintain service notes to support
the services billed.

Individual Habilitation Plan Not Complete or Available

Pursuant to section 1915(c)(1) of the Act and Federal regulations (42 CFR § 441.301(b)(1)(i)),
HCBS are to be provided only under a written plan of care subject to approval by a State
Medicaid agency. According to the State’s waiver agreement with CMS, an eligible CCW
program beneficiary must have an individual habilitation plan completed by a qualified mental
retardation professional every 12 months, and the division and the CCW program service
provider must maintain documentation of the individual habilitation plans for at least 3 years.

For 35 beneficiary-months, the State agency claimed reimbursement for services provided to
beneficiaries for whom neither the division nor Bancroft could provide approved or complete

4
  Supporting documentation includes at a minimum the following: date of service; name of recipient; Medicaid
identification number; name of provider agency and person providing the service; nature, extent, and units of
service; and place of service.



                                                        5
individual habilitation plans. Specifically, 32 individual habilitation plans were not approved by
qualified mental retardation professionals, 2 were missing pages, and 1 was not provided.

Level-of-Care Assessment Not Documented

Pursuant to section 1915(c)(1) of the Act and 42 CFR § 441.301(b)(1)(iii), HCBS are to be
provided only to a recipient who would, in the absence of these services, need the Medicaid level
of care provided in a hospital, nursing facility, or ICF/MR. Federal regulations (42 CFR
§§ 441.302(c) and 441.303(c)) require a State agency to provide for an initial evaluation and
periodic reevaluations, at least annually, of the recipient’s need for the level of care that would
be provided in an institution unless the individual receives HCBS. According to the State’s
waiver agreement with CMS, an eligible CCW program beneficiary must be assessed and
certified by a qualified mental retardation professional to need an ICF/MR level of care every
12 months, and the division must maintain documentation of the assessments for at least 3 years.

For 33 beneficiary-months, the State agency claimed reimbursement for CCW program services
provided to beneficiaries for whom the ICF/MR level-of-care assessment was not approved by a
qualified mental retardation professional.

Waiver Services Not Provided

Section 1902(a)(27) of the Act (42 U.S.C. § 1396a(a)(27)) mandates that States have agreements
with Medicaid providers under which providers agree to keep such records as are necessary
to disclose fully the extent of the services provided to individuals receiving assistance under a
State plan. According to section 2497.1 of CMS’s State Medicaid Manual, Federal financial
participation is available only for allowable actual expenditures made on behalf of eligible
recipients for covered services rendered by certified providers.

For one beneficiary-month, the State agency claimed reimbursement for services under the CCW
program that were not provided. Specifically, for the beneficiary-month, the beneficiary
received day habilitation services. However, the services were billed to both the State’s
Medicaid program and the CCW program. Bancroft’s records indicated that it used the
reimbursement from the CCW program for another beneficiary’s day habilitation services.

CAUSES OF UNALLOWABLE CLAIMS

The State agency did not ensure that it claimed reimbursement only for allowable and
documented CCW program services provided by Bancroft. Specifically, for some services,
Bancroft either did not maintain documentation to support the services billed or records
indicating that services were provided. Because of its cost reimbursement contract with the
division, Bancroft received fixed monthly payments based on an annual budget regardless of
how many beneficiaries it served. The division, through the State agency, claimed
reimbursement under the CCW program based on Bancroft’s monthly attendance reports but did
not verify that the services were actually provided or adequately documented in daily training
records and progress notes.




                                                 6
In addition, the division did not ensure that individual habilitation plans were complete and
approved for CCW program services. The division also did not ensure and document that all
CCW program beneficiaries were assessed and certified to need an ICF/MR level of care.
Specifically, for some beneficiaries, the CCW certification section of the individual habilitation
plan was incomplete, and no other documentation was available to indicate that the required
annual level-of-care assessment was performed. For our audit period, the State agency did not
have a standard form for assessing a program applicant’s level of care, and the CCW certification
section of the individual habilitation plan was the only documentation of the beneficiary’s need
for an ICF/MR level of care. 5

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,654,293 to the Federal Government;

    •   require Bancroft and the division to ensure that they only claim for documented,
        allowable CCW program services;

    •   require the division to ensure that CCW program services are provided only to
        beneficiaries for whom there is a completed and approved individual habilitation plan;
        and

    •   require the division to ensure and document that all CCW program beneficiaries
        approved for services have been assessed and certified to need an ICF/MR level of care.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with part of our first
recommendation and described actions that it has taken or planned to take to address the
remaining findings and recommendations. Under separate cover, the State agency provided
additional documentation to support services that we questioned in our draft report for lacking
adequate documentation.

In addition, the State agency disagreed with our findings related to incomplete individual
habilitation plans and CCW program services provided to beneficiaries who were not assessed
and certified to require an ICF/MR level of care. Specifically, the State agency indicated that a
habilitation plan coordinator’s signature in the attendance section of the beneficiary’s individual
habilitation plan indicated that the plan was complete and the level of care determination had
been recertified.

The State agency’s comments appear as Appendix D, except for a spreadsheet containing
personally identifiable information.

5
 The State agency issued a Self Care Assessment Tool in November 2005, but it was not approved by CMS until
after our audit period.


                                                      7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and additional documentation, we revised our
findings regarding inadequate documentation and modified our statistical estimates accordingly.
We maintain that our remaining findings are valid.

Regarding the State agency’s comments that a signature in the attendance section of the
beneficiary’s individual habilitation plan indicated that the plan was complete and demonstrated
that the beneficiary’s level of care determination had been recertified, we note that this section of
the plan is distinct from the “Community Care Waiver Certification” (emphasis in original)
section on the same page of the plan. The section described in the State agency’s comments is
listed as being intended for attendance purposes, whereas the certification section includes a
space for qualified mental retardation professionals to certify that they have reviewed the plan
and determined that the beneficiary “continues to have functional limitations and requires active
treatment and ICF/MR level services” for a specific period. In every individual habilitation plan
where we found an absence of qualified mental retardation professional approval or certification,
the “Community Care Waiver Certification” was unsigned.




                                                  8
APPENDIXES
                                                                                   Page 1 of 2


               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months of service provided by Bancroft NeuroHealth
(Bancroft) for which the New Jersey Department of Human Services (State agency) received
Medicaid reimbursement under New Jersey’s Community Care Waiver (CCW) program during
calendar years 2005 through 2007.

SAMPLING FRAME

The sampling frame was an Access file containing 7,057 beneficiary-months of service totaling
$41,640,164 ($20,820,082 Federal share). The data for beneficiary-months of service under the
New Jersey CCW program were extracted from the New Jersey Medicaid Management
Information System.

SAMPLE UNIT

The sample unit was a beneficiary-month during calendar years 2005 through 2007 for which the
State agency claimed Medicaid reimbursement for services provided by Bancroft under the CCW
program. A beneficiary-month is defined as all CCW program services for one beneficiary for 1
month.

SAMPLE DESIGN

We used a stratified random sample to review Medicaid payments made for services provided by
Bancroft on behalf of beneficiaries enrolled in the New Jersey CCW program. To accomplish
this, we separated the sampling frame into three strata, as follows:

   •   Stratum 1: beneficiary-months with total payments less than or equal to $5,000—1,869
       beneficiary-months totaling $4,194,810 ($2,097,405 Federal share).

   •   Stratum 2: beneficiary-months with total payments greater than $5,000 and less than or
       equal to $10,000—5,175 beneficiary-months totaling $37,305,344 ($18,652,672 Federal
       share).

   •   Stratum 3: beneficiary-months with total payments greater than $10,000—
       13 beneficiary-months, totaling $140,010 ($70,005 Federal share).

SAMPLE SIZE

We selected a sample of 113 beneficiary-months of service, as follows:

   •   50 beneficiary-months from stratum 1,

   •   50 beneficiary-months from stratum 2, and
                                                                                     Page 2 of 2


   •   13 beneficiary-months from stratum 3.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services statistical software,
RAT-STATS 2007. We used the random number generator for our stratified random sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the first two strata. After generating 50
random numbers for each stratum, we selected the corresponding frame items. We selected for
review all 13 beneficiary-months in stratum 3. We then created a list of 113 sampled items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of a 90-percent
confidence interval to estimate the overpayment associated with the unallowable services in the
beneficiary-months.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                Sample Details and Results

                                                               No. of
                                                             Beneficiary-    Value of
                         Value of               Value of       Months       Unallowable
          Beneficiary-    Frame                  Sample         With         Services
           Months in     (Federal      Sample   (Federal     Unallowable     (Federal
Stratum     Frame         Share)        Size     Share)       Services        Share)
   1         1,869        $2,097,405       50   $56,222          38           $29,329
                                                $178,15
   2         5,175       $18,652,672       50                    24           $28,311
                                                      9
   3            13          $70,005        13   $70,005          11           $58,724
                                                $304,38
 Total       7,057       $20,820,082     113                     73          $116,364
                                                      6


                 Estimated Value of Unallowable Services (Federal Share)
                  (Limits Calculated for a 90-Percent Confidence Interval)

                          Point Estimate                  $4,085,242
                           Lower Limit                    $2,654,293
                           Upper Limit                    $5,516,190
                                                                                              Page 1 of 3


          APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED
                          BENEFICIARY-MONTH

                                            Legend
1      Services Not Documented
2      Individual Habilitation Plan Not Complete or Available
3      Level-of-Care Assessment Not Documented
4      Services Not Provided

Office of Inspector General Review Determinations for the 113 Sampled Beneficiary-Months

      Sample
    Beneficiary-                                                                 No. of
      Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
      S1-1                             X              X                             2
      S1-2              X              X              X                             3
      S1-3                                                                          0
      S1-4                                                                          0
      S1-5              X              X              X                             3
      S1-6              X              X              X                             3
      S1-7                                                                          0
      S1-8              X                                                           1
      S1-9                             X              X                             2
      S1-10             X                                                           1
      S1-11             X                                                           1
      S1-12                            X              X                             2
      S1-13             X                                                           1
      S1-14                                                                         0
      S1-15             X              X              X                             3
      S1-16             X                                                           1
      S1-17                            X                                            1
      S1-18             X              X                                            2
      S1-19                            X              X                             2
      S1-20                                                                         0
      S1-21             X                                                           1
      S1-22             X              X              X                             3
      S1-23                                                                         0
      S1-24             X              X              X                             3
      S1-25             X                                                           1
      S1-26             X                                                           1
      S1-27             X                                                           1
      S1-28             X              X              X                             3
      S1-29             X              X              X                             3
      S1-30             X                                                           1
      S1-31             X              X              X                             3
      S1-32                                                                         0
                                                                                          Page 2 of 3

  Sample
Beneficiary-                                                                 No. of
  Month        Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
  S1-33                                                                         0
  S1-34             X                                                           1
  S1-35             X              X              X                             3
  S1-36             X              X              X                             3
  S1-37             X                                                           1
  S1-38                                                                         0
  S1-39             X                                                           1
  S1-40             X                                                           1
  S1-41             X                                                           1
  S1-42             X                                                           1
  S1-43             X                                                           1
  S1-44             X                                                           1
  S1-45             X                                                           1
  S1-46                                                                         0
  S1-47             X                                                           1
  S1-48                                                                         0
  S1-49                            X              X                             2
  S1-50                                                                         0
  S2-1              X                                                           1
  S2-2              X                                                           1
  S2-3                                                                          0
  S2-4              X              X              X                             3
  S2-5              X                                                           1
  S2-6                                                                          0
  S2-7                                                                          0
  S2-8                                                                          0
  S2-9                                                                          0
  S2-10                                                                         0
  S2-11                                                                         0
  S2-12                            X              X                             2
  S2-13                                                                         0
  S2-14                                                                         0
  S2-15                                                                         0
  S2-16                                                                         0
  S2-17             X                                                           1
  S2-18                            X              X                             2
  S2-19                                                                         0
  S2-20                                                          X              1
  S2-21                                                                         0
  S2-22                                                                         0
  S2-23             X                                                           1
  S2-24             X              X              X                             3
  S2-25                            X              X                             2
                                                                                             Page 3 of 3

    Sample
  Beneficiary-                                                                  No. of
    Month         Deficiency 1   Deficiency 2   Deficiency 3   Deficiency 4   Deficiencies
    S2-26              X                                                          1
    S2-27              X                                                          1
    S2-28                                                                         0
    S2-29              X                                                          1
    S2-30              X              X              X                            3
    S2-31                                                                         0
    S2-32                                                                         0
    S2-33              X                                                          1
    S2-34                                                                         0
    S2-35              X                                                          1
    S2-36                                                                         0
    S2-37                                                                         0
    S2-38              X                                                          1
    S2-39              X                                                          1
    S2-40              X                                                          1
    S2-41                                                                         0
    S2-42                                                                         0
    S2-43                                                                         0
    S2-44                                                                         0
    S2-45              X                                                          1
    S2-46              X                                                          1
    S2-47              X                                                          1
    S2-48                                                                         0
    S2-49              X                                                          1
    S2-50                                                                         0
    S3-1                              X              X                            2
    S3-2                              X              X                            2
    S3-3                              X              X                            2
    S3-4                                                                          0
    S3-5                              X              X                            2
    S3-6                              X              X                            2
    S3-7                              X              X                            2
    S3-8                              X              X                            2
    S3-9                              X              X                            2
    S3-10                             X              X                            2
    S3-11                             X              X                            2
    S3-12                             X              X                            2
    S3-13                                                                         0
Category Totals    52                35             33              1            121
73 Beneficiary-Months in Error
                                                                                                                      Page 1 of5

                        APPENDIX D: STATE AGENCY COMMENTS 





                                                 ~bth of ~2fu :JjersS2Y
C HRIS C HRJ STIE                              DEPARTMENT OF HUMAN SERVICES
    Governor                      D IVISION OF MEDICAL ASS ISTANCE AND HEALTH S ERVICES

KIM GUADAGNO                                              PO Box 712
                                                                                                                 JENNIFER VELEZ
  Lt. Governor                                       TRENTON, NJ 08625-0712                                       Commissioner
                                                                                                                 VALERIE HAU
                                                                                                                    Director
                                                     September 16, 2011



           James P. Edert
           Regional Inspector General for Audit Services
           Department of Health and Human Services
           Office of Inspector Gefleral
           Office of Audit Services Reg ion II
           Jacob K. Javits Federal Building
           26 Federal Plaza - Room 3900
           New York, NY 10278

                    Report Number: A-02-09-01 034

           Dear Mr. Edert:

           This serves as response to your letter dated July 20 , 2011 concerning the Department
           of Health and Human Services, Office of the Inspector General's (OIG) draft report
           entitled "Review of Medicaid Payments for Services Provided Under New Jersey's
           Section 1915 (c) Community Care Waiver by Bancroft NeuroHealth New Jersey from
           January 1, 2005 through December 31 , 2007 ." Your letter provides the opportunity to
           comment on the draft report.

           The objective of this review was to determine whether the Division of Medical
           Assistance and Health Services (DMAHS) claim for Medicaid reimbursement for
           Comm unity Care Waiver (CCW) program services provided by Bancroft NeuroHealth
           (Bancroft) complied with certain Federal and State requirements.

           The draft audit report concluded that New Jersey's claims for reimbursement for some
           CCW program services provided by Bancroft did not fully comply with certain Federal
           and State requirements. While 38 beneficiary-months of the 113 beneficiary-months in
           the random sample were properly claimed for Medicaid reimbursement for all CCW
           program services , the remaining 75 beneficiary-months were not allowable for Medicaid
           reimbursement for services . The draft report states that claims for unallowable services
           were made because (1) Bancroft and the Division did not ensure that they only claimed
           for documented , allowable CCW program services , (2) the Division did not ensure that
           CCW program services were provided only to beneficiaries with completed and
           approved IHPs (IHP), and (3) the Division did not ensure and document that all



                       New Je,.se)' Is An Equal Oppornmity Employer • PrlntaJ Off R«yc1ed Paper and RecycltJbk
                                                                                         Page 2 0[5



James P. Edert
September 16, 2011
Page 2


beneficiaries were assessed and certified to require an ICF/MR level of care. Based
upon the sample results, the auditor estimated that the State agency was improperly
reimbursed $2,861.908 in Federal Medicaid funds for CCW program services provided
by Bancroft during the calendar years 2005 through 2007 audit period.

We appreciate the opportunity to provide this response to the draft OIG audit report.
Following are the auditors' recommendations and the Division of Medical Assistance
and Health Services' responses:

Rec ommendation 1:

The OIG recomm ends that New Jersey refynd $2,861 ,908 to the Federal
Government:

The State concurs with some but not all of the findings concerning claims for
unallowable community care waiver program services. The State respectfully requests
that the amount of the refund be re-calculated based upon evidence retrieved from
archived files demonstrating that services were rendered . The documentation for these
claims has been forwarded to the auditor under separate cover. Our response to each
of the auditor's findings is as follows:

UNALLOWAB LE COMMU NITY CARE WAIVER pROG RAM SERVICES

Services Not Documented

Finding:

Section 1902(a)(27)(A) of the Act, 42 U.S.C. paragraph 1396(a)(27) mandates that
States have agreements with Medicaid providers under which providers agree to keep
such records as necessary to fully disclose the extent of the services provided to
individuals receiving assistance under the State plan . Costs must be adequately
documented in order to be allowable under Federal awards . For 54 beneficiary-months,
the State agency claimed reimbursement for services that were not adequately
documented. For these services, Bancroft did not maintain service notes to support the
services billed .

Response:

The DMAHS concurs with some but not all of the auditor's findings . The State retrieved
archived records (submitted under separate cover) that provide documentation of
services rendered. See attached excel spreadsheet for summary of documentation. The
Division respectfully requests that these cites be removed based upon the
documentation provided .
                                                                                           Page 3 of 5



James P. Edert
September 16, 2011
Page 3


Individual Habilitation Plan (IHP) Not Complete

Finding:

Pursuant to the State's waiver ag reement with CMS , an eligible CCW program
beneficiary must have an IHP completed by a OMRP (OMRP) every 12 months , and the
Division and the CCW program services provider must mainta in documentation of the
IHPs for at least 3 years. For 38 beneficiary-months, the State agency claimed
reimbursement for services provided to beneficiaries for whom neither the Division nor
Bancroft could provide approved or complete IH Ps. Specifically, 34 IHPs were not
approved by OMRPs, 3 were missing pages, and 1 was not provided .

Res ponse:

The DMAHS agrees with some, but not all of the auditor's findings. Several of the IHP's
were approved by the habilitation plan coordinator (HPC). The signature of the HPC , the
OMRP, was available in the top portion of the Attendance sheet. Please see
documentation provided under separate cover and the attached summary sheet. The
Division respe ctfully requests that these cites be removed based upon the
documentation provided.

Level of Care Assessment Not Documented

Finding :

Pursuant to the State's waiver agreement with CMS, an eligible CCW prog ram
beneficiary must be assessed and certified by a OMRP to need ICF/MR level of care
every 12 months, and the Division must maintain documentation of the assessments for
at least 3 years. For 36 beneficiary-months, the State agency claims reimbursement for
CCW program services provided to beneficiaries for whom the ICF/MR level-of-care
assessment was not approved by a OMRP.

Response :

The DMAHS agrees with some , but not all of the auditor's findings . Several of the IHP's
were approved and signed by the HPC, but the HPC did not also sign the ICF/MR
recertification section . At the exit conference , the Division's Waiver Administrator
indicated that the HPC is the OMRP and their signature in the attendance section
demonstrates that the level of care determination has been re-certified . Service Plans
that contain the OMRP signatu re in the attendance section have been provided under
separate cover. Please refer to the attached summary sheet for specifics .

The Division respectfully requests that these cites be removed based upon the
documentation provided .
                                                                                           Page 4 of5



James P. Edert
September 16, 2011
Page 4


Services not provided

Finding:

Pursuant to section 2497 .1 of the CMS's State Medicaid Manual, Federal financial
participation is available only for allowable actual expenditures made on behalf of
eligible recipients for covered services rendered by certified providers. For one
beneficiary-month , the State agency claimed reimbursement for services under the
CCW program that were not provided. Specifically, for the beneficiary-month, the
beneficiary received day habilitation services. However, the services were billed to both
the State's Medicaid program and the CCW program. Bancroft's records indicated that it
used the reimbursement from the CCW program for another beneficiary's day
habilitation services.

Response :

The DMAHS agrees with the auditor's findings.

CAUSES OF UNALLOWABLE CLAIMS

Recommendation 2:

The DIG recommends the New Jersey require Ban croft and the Division to ensure
that they only claim for documented . allowable CCW progra m se rvices.

Response:

For all cites where services were not documented Bancroft did not maintain service
notes to support the services billed . Specifically, the Daily Training Records in day
habilitation programs conflicted with the attendance record . The Division will provide a
written statement to Bancroft regarding the requirement that daily Training Records
must be recorded daily in order to be consistent with the attendance records . In
addition , the Division will provide training to Bancroft day training supervisors regarding
documentation of services and consistency between documents (e.g. , daily training
records and attendance records) .

Recommendation 3:

The DIG recommends that New Jersey require the DiYision to ensyre that CCW
program services are proyided only to beneficiaries for whom there is a
completed and approved IHP.
                                                                                           Page 5 of 5



James P. Edert 

September 16, 2011 

Page 5 



Recommendation 4: 


The DIG recommends that New Jersey require the DiYision to ensyre and 

document that all CCW program beneficiaries approyed for services haye been 

assessed and certified to need an ICFIMR leyel of care. 

Response to Recommendations 3 & 4: 


The Division submits that in conjunction with the DMAHS and the Division's Waiver 

Administrators for the other four (4) 1915(c) Home and Community Based Services 

Waivers , mandatory trainings were conducted for all case managers statewide serving 

any of the 1915(c) HCBS waivers. The training addressed the six basic assurances . 

Level of Care and Service Planning for case managers were addressed in the training . 

This train ing was based upon the "Training for Case Managers: Home and Community­

Based Services (HCBS) Waiver Assurances to Improve Quality" developed by the 

University of Southern Maine, Muskie School of Public Services, out of a contract with 

CMS. Trainings were conducted with case management supervisors on September 22 , 

2010 and September 24 , 2010. Trainings were conducted with case managers on 

October 19, 2010 , October 21 , 2010 . October 26, 2010 and December 14, 2010. 


Additionally, the Division has implemented quality monitoring systems to ensure that 

Plans of Care are completed timely, and that individuals have been assessed and 

certified to need an ICFIMR level of care . An electronic platform that tracks two tiers of 

oversight was developed and is currently being implemented . This platform allows Case 

Management Supervisors to review monthly a five percent sampling of Plans of Care 

and ICFIMR Level of Care determinations in addition to the Community Care Waiver 

Monitor reviewing 268 cases annually. The Division is in the process of developing 

reports for these applications. 


If you have any questions or require additional information, please contact me or 

Richard Hurd , Chief of Staff at 609-588-2550. 


                                          Sincerely,



                                          Valerie Harr
                                          Director

VH :H
c     Jennifer Velez
      Richard H. Hurd
